HHS/OIG, Audit -"Audit of Refugee Resettlement Grant No. 90RN0002 for the Period September 30, 1997 through September 29 2000"(A-09-01-00106)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Office Of Refugee Resettlement Grant No. 90RN0002 for the
Period September 30, 1997 through September 29, 2000," (A-09-01-00106)
November 28, 2001
Complete
Text of Report is available in PDF format (1.48 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Grant No. 90RN0002, a discretionary
grant awarded by the U.S. Department of Health and Human Services, Administration
for Children and Families.  Hmong American Women Association, Inc. (Association),
was awarded a grant for the project period from September 30, 1997 through
September 29, 2000, in the amount of $480,000, $160,000 for each of the 3 years
of the project period.  The grant was awarded to provide refugee assistance
that included citizenship classes, help with completion of naturalization applications,
and referral services.  The objective of our audit was to determine if
the Association accomplished the objectives of the grant.  The Association
accomplished the two primary grant objectives.  However, progress reports
submitted by the Association did not always show the actual accomplishments
of the grant objectives.  We recommended that the Association improve
its record keeping procedures to ensure that progress reports show the actual
accomplishment of grant objectives.  The Association concurred with our
recommendation and provided a record-keeping plan.